No.

In the Supreme Court of the United States
JAMES ROSEMOND,
Petitioner,
v.
UNITED STATES,
Respondent.
On Petition For A Writ Of Certiorari To
The United States Court Of Appeals
For The Second Circuit
CERTIFICATE OF COMPLIANCE

I, Michael Rayfield, counsel for Petitioner and a
member of the Bar of this Court, certify pursuant to
Rule 33.1(h) of the Rules of this Court that this
Petition for Writ of Certiorari contains 6,020 words,
excluding the parts of the brief that are exempted by
Rule 33.1(d)
s/ Michael Rayfield
Michael Rayfield

